HHS/OIG-Audit--"Results of Interviews with Principal Research Investigators Concerning the National Institutes of Health's Award Process, (A-06-92-00050)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Results of Interviews with Principal Research Investigators Concerning
the National Institutes of Health's Award Process," (A-06-92-00050)
July 28, 1992
Complete
Text of Report is available in PDF format (957 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of interviews conducted during Calendar
Year 1991 with 94 Principal Research Investigators (PI) at 39 colleges and universities
throughout the Unites States concerning the National Institutes of Health's (NIH)
award process. We found that the PIs generally supported NIH's award process, however,
80 percent of the PIs interviewed suggested that: (1) NIH's funding priorities
are often targeted toward predetermined areas of research rather than being based
on scientific merits of proposals; (2) NIH's application and review process take
an inordinate amount of time and effort to complete; (3) there is an absence of
feedback from NIH; and (4) indirect costs of research have questionable value.